  COMPLIANCE WITH STANDARDS GOVERNING
COMBINED DNA INDEX SYSTEM ACTIVITIES AT THE
     INDIAN RIVER CRIME LABORATORY
      AT INDIAN RIVER STATE COLLEGE
           FORT PIERCE, FLORIDA


          U.S. Department of Justice
        Office of the Inspector General
                 Audit Division


         Audit Report GR-40-10-001
                October 2009
        COMPLIANCE WITH STANDARDS GOVERNING
      COMBINED DNA INDEX SYSTEM ACTIVITIES AT THE
            INDIAN RIVER CRIME LABORATORY
              INDIAN RIVER STATE COLLEGE
                 FORT PIERCE, FLORIDA

                              EXECUTIVE SUMMARY


      The Department of Justice Office of the Inspector General (OIG), Audit
Division, has completed an audit of compliance with standards governing
Combined DNA Index System (CODIS) activities at the Indian River Crime
Laboratory (Laboratory). The Federal Bureau of Investigation’s (FBI) CODIS
program blends forensic science and computer technology to provide an
investigative tool to federal, state, and local crime laboratories in the United
States, as well as those from select international law enforcement agencies.
The CODIS program allows laboratories to compare and match DNA profiles
electronically to assist law enforcement in solving crimes and identifying
missing or unidentified persons. 1 The FBI’s CODIS Unit manages CODIS, as
well as develops, supports, and provides the program to crime laboratories
to foster the exchange and comparison of forensic DNA evidence.

      The FBI implemented CODIS as a distributed database with
hierarchical levels that enable federal, state, and local crime laboratories to
compare DNA profiles electronically. The hierarchy consists of three distinct
levels that flow upward from the local level to the state level and then, if
allowable, the national level. National DNA Index System(NDIS), the
highest level in the hierarchy, is managed by the FBI as the nation’s DNA
database containing DNA profiles uploaded by law enforcement agencies
across the United States. NDIS enables the laboratories participating in the
CODIS program to electronically compare DNA profiles on a national level.
The State DNA Index System (SDIS) is used at the state level to serve as a
state’s DNA database containing DNA profiles from local laboratories and
state offenders. The Local DNA Index System (LDIS) is used by local
laboratories.

       1
          DNA, or deoxyribonucleic acid, is genetic material found in almost all living cells
that contains encoded information necessary for building and maintaining life.
Approximately 99.9-percent of human DNA is the same for all people. The differences
found in the remaining 0.1-percent allow scientists to develop a unique set of DNA
identification characteristics (a DNA profile) for an individual by analyzing a specimen
containing DNA.



                                             -i-
      The objectives of our audit were to determine if the: (1) Laboratory
was in compliance with the NDIS participation requirements; (2) Laboratory
was in compliance with the Quality Assurance Standards (QAS) issued by the
FBI; and (3) Laboratory’s forensic DNA profiles in CODIS databases were
complete, accurate, and allowable for inclusion in NDIS. The results of our
review are below.

       •   We determined that the laboratory was in compliance with the NDIS
           participation requirements. However, we noted that for one of the
           six matches we reviewed, the Laboratory’s response time to notify
           investigators of the confirmed match was 22 calendar days or
           16 business days. 2 Issues of this type may be prevented by
           Laboratory staff emphasizing the importance of notifying
           investigators of matches in a timely manner. Investigators were
           notified timely for the other five matches we reviewed.

       •   The Laboratory was in compliance with the QAS tested.

       •   We reviewed 50 of 196 forensic profiles the Laboratory had
           uploaded to NDIS as of April 21, 2009. Of the 50 forensic
           profiles sampled, we found 1 was unallowable for upload to
           NDIS and 1 had an incorrect specimen number. The
           unallowable profile matched a known suspect and thus should
           not be in NDIS. The CODIS Administrator removed the
           unallowable profile from NDIS and corrected the inaccurate
           specimen identification number during the audit. For one
           sample we reviewed, the laboratory uploaded values that fell
           below the Laboratory’s established threshold at one locus. 3
           Once we brought this to the laboratory’s attention, staff
           removed the questionable values from NDIS and retained the
           profile. Issues such as those found may be prevented by
           Laboratory staff focusing more on detecting all errors before
           profiles are uploaded to NDIS. The remaining 47 profiles we
           reviewed were complete, accurate, and allowable for inclusion
           in NDIS.

       2
         While this is not an NDIS participation requirement, the OIG uses a standard of
2 weeks to assess timely notification of matches to investigators.

       3
         A “locus” is a specific location on a chromosome. The plural form of locus is loci.
Quantification is commonly used in molecular biology to determine the concentrations of
DNA present in a sample, as subsequent reactions or protocols using a nucleic acid sample
often require particular amounts for optimum performance.


                                            - ii -
        To address the laboratory’s compliance with standards governing
CODIS activities, we made one recommendations for retraining laboratory
staff, which is discussed in the Findings and Recommendations section of the
report. Our audit objectives, scope, and methodology are detailed in
Appendix I of the report and the audit criteria are detailed in Appendix II.

      We discussed the results of our audit with Laboratory officials and
have included their comments in the report as applicable.




                                    - iii -
